No.
IN THE
SURPREME COURT OF THE UNITED STATES
October Term 2020

JUSTIN STROLIS,
Petitioner,
v.
LUCAS HEISE,
individually, for actions taken under color of law
as a deputy with the Augusta Richmond County
Sheriffs Department,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 8945 words.

This 21st day of June, 2021.

LA
JQHN P. BATSON

1104 Milledge Road

Augusta, GA 30904
706-737-4040
jpbatson@aol.com

Attorney for Petitioner Strolis
Counsel of Record

Member of Supreme Court Bar

 
